                           U.S. DEPARTMENT OF THE INTERIOR
                              OFFICE OF INSPECTOR GENERAL




              PROGRAM ASSESSMENT RATING TOOL
                   PROGRESS EVALUATION

                 U.S. FISH AND WILDLIFE SERVICE
                 ENDANGERED SPECIES PROGRAM




Y-RR-FWS-0007-2007                                                  June 2008

         This report contains information that has been redacted pursuant
       to 5 U.S.C. § 552 (b)(5) of the Freedom of Information Act (FOIA).
               United States Department of the Interior
                                Office of Inspector General
                                Office of Inspections and Evaluations
                                    381 Elden Street, Suite 1100
                                      Herndon, Virginia 20170

                                                                                June 3, 2008

Memorandum

To:           H. Dale Hall
              Director, Fish and Wildlife Service

From:         Christina M. Bruner
              Regional Manager, Eastern Region

Subject:      Program Assessment Rating Tool (PART) — Progress Evaluation of the
              Fish and Wildlife Service (FWS) Endangered Species Program
              (Report No. Y-RR-FWS-0007-2007)

       As you may know, the Office of Inspector General recently had the opportunity to
complete an independent assessment of FWS’s Endangered Species Program. We spent time
with FWS employees in Washington, DC, and visited several field sites to learn about Program
operations. We thank your staff for their valuable input.

        Our team evaluated the progress that your staff has made to date in addressing
recommendations from the Office of Management and Budget (OMB). We provide our
observations in the attached report. The Program is addressing many challenges, and we offer
15 suggestions that we believe will help you prepare for OMB’s next review. We encourage you
to discuss these suggestions with your Assistant Director—Endangered Species and to
implement those that you agree will improve FWS performance and the Program’s chances of a
successful PART review in the future.

      If you have any comments or questions regarding this report, please call me at
703–487–8011.
  PART PROGRESS EVALUATION: U.S. FISH AND WILDLIFE SERVICE
              ENDANGERED SPECIES PROGRAM

                                                  TABLE OF CONTENTS
Acronyms Used.............................................................................................................................. ii

Introduction ....................................................................................................................................1

           Why We Did This Review .................................................................................................1
           Objectives and Methodology.............................................................................................1
           How We Structured this Report .......................................................................................1
           Fish and Wildlife Service Endangered Species Program Overview .............................2

Analysis and Suggestions...............................................................................................................5

           Planning ..............................................................................................................................5
                 The Strategic Plan. ...................................................................................................5
                 Employee Performance Plans ............................................................................... [9]
                 Partner Agreements............................................................................................. [13]
           Independent Evaluation ............................................................................................... [15]
           Regulations and Policies ............................................................................................... [18]
           Duplication of Effort. .................................................................................................... [20]

Appendix A, History and Use of the PART ............................................................................ A-1

Appendix B, Sites Visited or Contacted ...................................................................................B-1

Appendix C, Index of OMB Program Improvement Plan Actions by
     Report Section ............................................................................................................... C-1

Appendix D, Table of Suggestions ........................................................................................... D-1

Appendix E, PART Questions that Elicited a NO Answer ....................................................E-1




ON THE COVER: The Endangered Karner Blue Butterfly. Source: FWS
              ACRONYMS AND TERMS OF REFERENCE USED
 ARD      Assistant Regional Director
 CEQ      Council on Environmental Quality
  CFR     Code of Federal Regulations
 CNO      California and Nevada Operations Office
 Corps    Army Corps of Engineers
  DOI     Department of the Interior
  EPA     Environmental Protection Agency
  EPP     Employee Performance Plan
  ESA     Endangered Species Act
 [FOIA]   [Freedom of Information Act]
 FWS      Fish and Wildlife Service
  FY      Fiscal Year
  GIS     Geographic Information System
 GPRA     Government Performance and Results Act
 MMS      Minerals Management Service
 MOBIS    Mission Oriented Business Integrated Services
 MOU      Memorandum of Understanding
NCCDPHP   National Center for Chronic Disease Prevention and Health Promotion
 NGO      Non-Governmental Organization
 NOAA     National Oceanic and Atmospheric Administration
 NWRS     National Wildlife Refuge System
  OIG     Office of Inspector General
 OMB      Office of Management and Budget
 PART     Program Assessment Rating Tool
 RCD      Resource Conservation District
  SAR     Species-at-Risk
 SHA      Safe Harbor Agreement
 TBD      To Be Determined
 WAG      Work Activity Guidance
 WSFR     Wildlife Sport Fish Restoration
                                      INTRODUCTION

WHY WE DID THIS REVIEW
The Deputy Secretary of the Department of the Interior (DOI) asked the Office of Inspector
General (OIG) to review the progress made in programs
designated Results Not Demonstrated by the Office of         WHAT IS THE PART?
Management and Budget (OMB). OMB uses the Program
Assessment Rating Tool (PART) to make these                  Federal agencies use the Program
                                                             Assessment Rating Tool (PART), a
designations. More detailed information on the PART          standard questionnaire, to submit
process can be found in Appendix A. We selected for          information on Federal programs to
review the U.S. Fish and Wildlife Service (FWS)              the Office of Management and
Endangered Species Program (referred to as the Program),     Budget (OMB). OMB examiners
which is administered by the Assistant Director for          assess programs based on responses
                                                             to YES/NO questions in the areas of
Endangered Species. OMB reviewed the Program in 2005.        program purpose and design,
                                                               strategic planning, program
OBJECTIVES AND METHODOLOGY                                     management, and – most
                                                               importantly - program results.
Based on its review, OMB made recommendations that
relate to 1) the Program’s performance measures and            OMB uses the information to
                                                               determine program effectiveness, to
incorporating the measures into employee performance
                                                               recommend improvements for rated
plans and partner agreements, 2) independent program           programs, and to follow up on those
evaluation, and 3) regulations and policies. The objectives    improvements.
of our review were to determine what progress FWS and
the Program have made toward implementing the OMB              The ExpectMore.gov Web site
                                                               publishes PART results.
recommendations and to provide observations and
suggestions that DOI and Program managers can use in           See Appendix A for more
preparing for upcoming PART reviews.                           information on the history and use
                                                               of the PART.
To meet the objectives, we interviewed FWS officials;
reviewed and analyzed Program documentation; and
completed a limited review of related endangered species literature. We also visited or contacted
a number of regional and field offices as noted in Appendix B. We conducted our review in
accordance with the “Quality Standards for Inspections” established by the President’s Council
on Integrity and Efficiency. We based our suggestions on OMB 2007 PART guidance.

HOW WE STRUCTURED THIS REPORT
Following a brief Program overview, we make a number of suggestions related to 1) planning;
2) independent evaluation; 3) regulations and policies; and 4) duplication of effort. Appendix C
shows how these topics and suggestions relate to the OMB PART recommendations.




                                                1
FWS ENDANGERED SPECIES PROGRAM OVERVIEW

The Endangered Species Act (ESA) requires all federal agencies to conserve endangered and
threatened species. It assigns responsibility for implementing the Act to the Secretary of the
Interior for terrestrial and freshwater species and
to the Secretary of Commerce for marine species.       The purposes of this Act are to provide a
FWS bears primary responsibility within DOI;           means whereby the ecosystems upon which
the National Oceanic and Atmospheric                   endangered species and threatened species
                                                       depend may be conserved, to provide a
Administration (NOAA) bears the responsibility         program for the conservation of such
within the Department of Commerce. In                  endangered species and threatened species,
implementing the ESA, the agencies place               and… It is further declared to be the policy
species in danger of extinction or likely to           of Congress that all Federal departments
become in danger of extinction on endangered           and agencies shall seek to conserve
                                                       endangered species and threatened species
and threatened lists, respectively. Species            and shall utilize their authorities in
classified as either endangered or threatened are      furtherance of the purposes of the Act.
referred to collectively as “listed” species. FWS
and NOAA share management responsibilities for                   — The Endangered Species Act of 1973

the approximately 10 listed species (eight species,
two of which have two distinct populations) that inhabit both land and sea. FWS’s eight regions
and its Washington Office oversee approximately 1,300 listed species throughout the United
States. FWS fulfills its ESA responsibilities through listing species and fostering and performing
activities to protect and recover species.

There are two ways to list, delist, or reclassify (from endangered to threatened or threatened to
endangered) a species: by a petition process from the public (anyone outside of FWS) and by
FWS. In a petition process, FWS has 90 days to find either that the information presented is not
sufficient to propose listing the species or that it warrants further consideration for listing. For
species found warranting further consideration, FWS has nine months to produce a final finding.
FWS must publish all findings in the Federal Register. The process for delisting a species is the
same as for listing. In addition, FWS maintains a list of candidate species for which there is
sufficient information to propose listing but for which formal listing is precluded due to action
on higher priority proposals.

Listed species may benefit from several types of protection, described below.

   •   The ESA requires that critical habitat be designated no later than one year after a species
       has been listed. Critical habitat is a geographic area determined to be essential to the
       species’ conservation. Federal agencies may not take or provide funding for any actions
       that would cause adverse modification of designated critical habitat.

   •   The ESA also protects endangered and threatened species by rendering it illegal to “take”
       them without a permit, which may be issued only for certain conservation and scientific
       purposes. Take includes activities such as harassing, harming, capturing, and killing
       listed animals as well as significantly modifying or degrading their habitats.

                                                  2
   •   As all federal agencies are responsible for conserving endangered and threatened species,
       they must consult with FWS to ensure that they do not authorize, fund, or carry out any
       activities that would jeopardize the survival of listed species.

   •   The ESA requires FWS to develop and implement plans, referred to as “recovery plans,”
       to identify the steps needed to restore a species, with priority given to the species that are
       most likely to benefit from them. FWS involves the public, interested stakeholders, and
       public and private agencies and institutions in developing and implementing recovery
       plans. Of the over 1,300 species for which FWS is responsible, approximately 86 percent
       have recovery plans, and more are under development or scheduled for development.

FWS implements the provisions of the ESA for terrestrial and freshwater species through its
Endangered Species Program. However, actions affecting the survival of listed and at-risk
species extend beyond FWS to other federal, state, tribal, and private entities over which FWS
does not maintain direct authority. The Program is further complicated because funding for
                                         species conservation is spread across many federal and
                                         state agencies, as well as tribes and non-governmental
                                         organizations (NGOs).

                                            More specifically, the Program involves numerous
                                            organizational entities within FWS and elsewhere in
                                            DOI, the Department of Agriculture, the Department of
                                            Defense, the Environmental Protection Agency (EPA),
                                            and other federal entities; the fifty states, encompassing
                                            an assortment of fish, game, wildlife, recreation,
      The Endangered Short-Tailed Albatross conservation, transportation, and other state agencies;
                              Source: FWS   Native American tribes; local governments; non-
governmental organizations (NGOs), such as The Nature Conservancy, the Center for Plant
Conservation, the Whooping Crane Eastern Partnership, and the Audubon Society; numerous
universities; and tens of thousands of private landowners and businesses.

The Program uses a number of tools to encourage private landowners to manage their lands in a
way that will benefit listed and at-risk species. These tools include, among others, Safe Harbor
Agreements (SHAs), Candidate Conservation Agreements, Habitat Conservation Plans,
Conservation Banks, and Private Stewardship Grants. The Program also works with state
agencies through cooperative agreements to assist them in implementing approved state wildlife
action plans and provides grants to state agencies for conservation and recovery projects for
listed species.

As described in Table 1 below, in addition to the FWS Program funding, several bureaus receive
funding specifically for endangered species based on their land management responsibilities and
natural resource protection goals. For each bureau, the funds we identify here do not include
funding that may be integrated with other budget activities. For example, for the Bureau of
Reclamation, we include only the bureau’s FY2009 budget justification of $21.9 million for the


                                                  3
bureau-wide Endangered Species Recovery Program. We did not include an additional estimated
$8.9 million for the bureau in project-specific funding related to endangered species.


               Table 1. Threatened and Endangered Species Funding
                 for Selected DOI Bureaus/Programs ($ in thousands)
                                                                                                  FY2009
            Bureau / Program                     FY2006           FY2007          FY2008
                                                                                                  Request
  Fish and Wildlife Service
                                                   148,398          144,979         150,508          146,841
  Endangered Species
  Bureau of Land Management
                                                     21,254           21,407          22,302          20,582
  Threatened and Endangered Species
  Bureau of Reclamation
                                                      9,315           11,299          16,348          21,939
  Endangered Species Recovery Program
  Bureau of Indian Affairs
                                                      1,192              219           1,228             250
  Endangered Species
  National Park Service
                                                     87,834           91,342          93,986         102,466
  Threatened and Endangered Species

                                     Total:        267,993          269,246         284,372          292,078
                                                                 Source: budget justifications for each bureau

In addition to the bureaus listed in Table 1, several other DOI bureaus and programs conduct
endangered species work; however, they do not allocate funds specifically for endangered
species. Further, according to the latest (FY2004) figures available from FWS, federal agencies
other than DOI reported spending about $813 million annually complying with ESA
requirements or otherwise supporting conservation of threatened and endangered species. In
addition, state governments collectively spent a quarter of this amount ($205 million). These
investments, together with an indeterminable amount from nonprofit organizations and private
landowners, are vital to the protection of species facing decline and possible extinction.


                   At times, efforts to protect and recover listed species are
                   controversial; declining species often function like the proverbial
                   canary in the coal mine, by flagging larger issues of resource
                   scarcity and altered ecosystems.
                    — The Endangered Species Act (ESA) in the 110th Congress: Conflicting
                            Values and Difficult Choices (Congressional Research Service)




                                                      4
                           ANALYSIS AND SUGGESTIONS

Based on its 2005 PART assessment, OMB made a number of recommendations to improve
Program operations. The OMB report called on FWS to:

   •   Improve Planning by developing performance measures for long-term outcomes, annual
       outputs, and efficiency and stepping down those measures into employee performance
       plans and partner agreements;
   •   Develop programs for monitoring partner agreements;
   •   Develop a schedule and process for independent program Evaluation; and
   •   Ensure Regulations and Policies help improve the Program’s effectiveness by revising
       the definition of adverse modification and issuing critical habitat guidance.

We reviewed the Program in 2007 and observed progress toward implementing each of these
recommendations. We summarize below key actions taken to date and discuss suggestions to
further strengthen Program management and improve the Program’s next PART assessment. See
Appendix D for a complete list of our suggestions.


PLANNING
In this section we discuss 1) the strategic plan; 2) employee performance plans; and 3) partner
agreements and provide suggestions to improve strategic planning. By acting on our suggestions,
Program officials will be able to establish a clearer and more comprehensive approach to
strategic planning.


The Strategic Plan

OMB Recommendation: Develop long-term outcome and annual output performance
measures.

OMB Recommendation: Develop and use efficiency measures for key aspects of the
program.

For PART purposes, Program performance measures should address:

   •   outcomes — the external results and public benefits intended when carrying out program
       activities,
   •   outputs — the products and services delivered by the program, and
   •   efficiency — the economical management of resources to produce outputs and achieve
       outcomes.

In its 2005 PART review of the Endangered Species Program, OMB described the strategic plan
(Plan), which is the Program’s first, as being “in its infancy.” [Exemption 5]

                                               5
[Exemption 5] According to the Assistant Director for Endangered Species, FWS officials are
pilot-testing the draft Plan in FY2008 and will revise it based on their experience throughout the
year. The public will have an opportunity to comment on the Plan before it is submitted to the
FWS Director for approval at the end of FY2008. [Exemption 5]

[Exemption 5]                         [Table 2 has been redacted under Exemption 5 of the FOIA.]

[Exemption 5] In the past, the focus had been on species that were close to recovery and on
species that were close to extinction. According to the Assistant Director, species in the middle
tiers, currently about 850, have lacked attention. [Exemption 5]

[Exemption 5]

   •   [Exemption 5]

   •   [Exemption 5]

                   [Table 3 has been redacted under Exemption 5 of the FOIA.]

[Exemption 5]

Once the specific baselines and targets have
been calculated, the Program will have
implemented OMB’s recommendations for
developing long-term and annual outcome and
output measures. With baseline and target
numbers set for the efficiency measures, the
Program will have the basic tools in place for
measuring program performance under PART.
[Exemption 5] Although Departmental and                                 The Threatened Polar Bear
FWS officials prefer to keep the number of                                           Source: FWS
PART measures to a minimum, Program
officials should also be prepared to discuss with the OMB examiner which output and efficiency
measure(s) best demonstrate Program results.

       SUGGESTION 1
       Designate an annual efficiency measure and a minimum of one annual output
       measure for each outcome.

                                       [Exemption 5] FWS does not have sole responsibility for
        PART QUESTION 4.1              meeting the mandates of the ESA [Exemption 5]. The
 Has the program demonstrated          cross-cutting nature of implementing the ESA means the
 adequate progress in achieving its    ESA is not only about biological science, but also about
 long-term performance goals?
                                       organizational and political relationships. Effective and fair
                                       performance measures should therefore not hold FWS


                                                 6
alone accountable for recovery, or focus only on biological measures, but should be developed
with consideration of the complex organizational and political context of ESA implementation.

The purpose of the ESA is to provide a means and a program for conservation of endangered and
threatened species and their ecosystems. The implied overarching goal is to recover species to a
point at which they are no longer at risk of extinction. It does not task DOI (delegated to FWS)
with the entire responsibility for recovery, but rather for working with other agencies and
organizations to protect terrestrial and freshwater species. The National Wildlife Refuge System,
the Bureau of Land Management, and the Forest Service have land on which endangered and
threatened species reside, as well as funding to do recovery work on that land; they can influence
species recovery and conservation to a high degree. Also, according to Program officials, seventy
                                       to eighty percent of endangered species spend at least a
  Recovery depends on many local,      portion of their lives on private lands, and while FWS has
  small-scale, private, and public     expanded partnerships with private landowners in the past
  decisions. It is these decisions
  that are the appropriate focus for   ten years, it has relatively little authority to force private
  improving recovery efforts.          landowners to take or not take actions.
  — from The Endangered Species Act   Accordingly, the function of the FWS Endangered Species
                     at Thirty, vol.1
                                      Program is to foster the relationships among other
                                      organizations and FWS that can, in the long term, result in
recovery. Consequently, we believe it is reasonable to assess the Program’s effectiveness based
on this process work. One official told us that FWS’s OMB examiner said the bureau needs to
delist more species to both improve their level of success and free up resources to use elsewhere.
FWS does have direct responsibility for delisting species. However, there is a difference between
delisting a species – taking specific actions through the regulatory process – and doing the
recovery work that improves a species’ status to the point that it is ready to be delisted. The
Program is responsible for the delisting process, but cannot reasonably be held solely responsible
for doing all of the recovery work needed by approximately 1,300 freshwater and terrestrial
endangered and threatened species.

[Exemption 5]
                                                               In 1998 the Audubon Society
                                                               named [John and Frank Craighead]
[Exemption 5] The states, tribes, NGOs, landowners,
                                                               among the top 100 figures in
businesses, universities, and the public all have essential    conservation of the 20th century.
roles in recovering and conserving species. Yet these          And this year’s delisting from the
partners have their own agendas, assumptions,                  federal Endangered Species Act of
methodologies, and circumstances over which the                grizzly bears in and around
federal government has limited influence. Only program         Yellowstone is a direct ripple effect
grantees and contractors (those who receive federal            of their legacy…
funds) and federal agencies can be held accountable for
                                                                  — from The Washington Post Magazine,
meeting Program goals.                                                              November 11, 2007

[Exemption 5]




                                                  7
[Exemption 5] Generally, a logic model identifies who contributes what – the inputs; who does
what with those inputs – the activities; what those activities produce – the outputs; the expected
                                        benefits or changes that result from those contributions –
                                        the outcomes; and the interrelationships among the
                                        contributors. For example, one might determine each
                                        organization’s and individual’s resource investments,
                                        roles, and responsibilities when implementing the ESA
                                        (inputs to the total recovery effort). They could then
                                        determine how their activities produced (outputs) fit
                                        together to meet the ESA’s conservation goals (outcomes).
                                        Clearly defining inputs, such as resources invested, will
                                        help specify meaningfully targets because the inputs to a
                                        well-designed program should produce outputs, the sum
                                        of which should result in the program’s intended
                                        outcomes. [Exemption 5]

                                              The logic model template below, used by The United
                                              Way, breaks down outcomes into various stages, in a
                                              manner similar to the annual and long-term measures
                                              required by OMB. See
          The Threatened Fassett’s Locoweed
                               Source: FWS    http://national.unitedway.org/outcomes/.

 Inputs     Activities    Outputs      Initial Outcomes       Intermediate Outcomes   Longer-Term Outcomes

An overall logic model might start with the ESA’s purpose and show the FWS Endangered
Species Program as one input, or perhaps show different elements of the Program as separate
inputs.

          SUGGESTION 2
          Convene a working group, including an individual or individuals with logic
          modeling expertise, to develop a high-level logic model for the ESA and a
          detailed one for the Endangered Species Program within FWS. The working
          group for developing, not just reviewing, these models should also include a
          representative group of partners—federal, state, tribal, NGO, and landowner. This
          would help improve partners’ understanding of their impacts (both positive and
          negative) on the Program and the ESA’s intended outcomes, as well as serve to
          improve cooperation with and among partners in support of the Program’s
          mission. Additionally, the logic model could help demonstrate the Program’s
          complexity and nuances to OMB, as well as the need for its many partners’ efforts
          that support, rather than duplicate, common outcome goals. (See the section on
          Duplication of Effort on page 23.)




                                                          8
[Exemption 5]

       SUGGESTION 3
       Develop a guide that clearly describes how the regions and field offices need
       to modify their operations to implement the Plan. This task force should
       include field office and regional office personnel as well as Washington Office
       personnel.

The public’s ability to sue under the ESA and partners’ use of that authority significantly affects
other Program activities. Several managers mentioned the effects litigation has on the Program’s
work. [Exemption 5] According to several officials, court orders drive their priorities, forcing
them to take certain actions while neglecting others they would like to take. Litigation also forces
FWS to move some lower-priority species ahead of higher-priority ones when considering
listing, and missing others entirely. Managers in the regions stated that new court mandates to
complete 5-year reviews have created extra work for the field with no additional money or staff.
As a result, staff have less time to work with partners on recovery efforts. Officials in the
Washington Office told us that the Program now has people dedicated to handling litigation,
which should free their biologists from doing legal reviews. Officials in one regional office told
us that they are streamlining how they handle litigation and are working, at the field and regional
level, to develop critical habitats that are as “litigation-proof” as possible. [Exemption 5]

       [Exemption 5]

Employee Performance Plans

OMB Recommendation: Revise individual employee performance plans to include specific,
measurable annual and long-term goals.

In response to this recommendation, the FWS
Washington Office directed the regional and
field offices to rewrite their employee
performance plans (EPPs) with measureable
objectives that link to the Program’s new
annual and long-term goals. OMB stated in
the 2005 PART review that the FY2006 EPPs
for some regions included specific measurable
annual and long-term goals that were stepped
down from the DOI Strategic Plan. To gauge
progress on this recommendation, we
reviewed two samples of EPPs.

The Washington Office asked managers in
each of FWS’s eight regions to select EPPs
for our review. They provided 32 EPPs
representing a variety of positions at various                      The Endangered Green Pitcher Plant
pay grades, including SES positions. All EPPs                              Source: Pete Pattavina/FWS


                                                 9
were for employees specifically assigned to the Endangered Species Program, either in a field or
regional office. We gathered a second sample of 25 EPPs during our four field and regional
office site visits. This second sample also included various pay grades and positions, but the
highest-level position reviewed was regional office manager.

As shown in Table 4 below, all EPPs sampled contained at least one goal that supported Program
or DOI strategic plan goals. For example, one EPP stated, “Work toward a goal of managing
species at self-sustaining levels, in cooperation with affected States and others as defined in
approved management documents.” This employee goal contributes to the DOI goal of resource
protection. These EPPs indicate that the Program is progressing well on linking employee
performance to Program and DOI goals.

With respect to measurability, only 19 (59 percent) of the first sample and five (20 percent) of
the second sample demonstrated measurability either directly within the strategic plan-related
critical element or in the performance standards for that element. For example, “The employee

                  Table 4. Analysis of Employee Performance Plans
                                                               Number of EPPs
   EPPs                                                    Measurability of
  Obtaine       Region                    Linked to                                       With Full
                                                           Critical Elements     For
   d Via                          Total   Strategic                                     Accountability
                                                           or Performance      Managers
                                            Plan                                         Addressed
                                                              Standards
    HQ      Region 1               3         3                    3               2            2
            Region 2               2         2                    2               0            0
            Region 3               6         6                    0               5            1
            Region 4               9         9                    8               6            5
            Region 5               4         4                    2               3            3
            Region 6               3         3                    3               1            1
            Region 7               2         2                    0               1            1
            CNO (Region 8)         3         3                    1               3            2
                    Subtotal       32        32                   19              21          15
            New England FO         3         3                    3               0            0
    Site    Sacramento FO          7         7                    0               3            3
   Visits   CNO (Region 8)         9         9                    0               2            2
            Virginia FO            6         6                    2               2            2
                    Subtotal       25        25                   5               7            7
                          Total    57        57                   24              28          22

exceeds two or more of the specific conservation targets that are identified in the annual Work
Activity Guidance (WAG)… is clearly measureable.” However, many of the sample EPPs did
not have objectively measurable strategic plan-related critical elements or standards. “Employee


                                                      10
routinely demonstrates sustained performance that is of such high quality…” is a valuable
performance goal, but one which cannot be discretely quantified.

PART Question 3.2 stresses the importance of holding
managers accountable for cost, schedule, and                         PART QUESTION 3.2
performance results. Twenty-one of the 32 EPPs received      Are Federal  managers and program
from the Washington Office were for managers and of          partners (including grantees, sub-
                                                             grantees, contractors, cost-sharing
those, 15 held the managers accountable for cost,            partners, and other government
schedule, and performance results. Three of the 21 EPPs      partners) held accountable for cost,
addressed only schedule and performance results, one         schedule and performance results?
addressed only performance, and the remaining two did
not hold the manager accountable for any such results.
Seven of the 25 EPPs collected during site visits were for managers, and all of those held the
manager accountable for cost, schedule, and performance results.

Two field offices – New England and Virginia – did create measurable EPP goals by
incorporating their WAG requirements into the EPPs. Each region develops its own WAG,
which identifies minimum accomplishments on certain activities for the region to contribute to
the achievement of GPRA goals. Each field office then develops its own WAG based on the
regional WAG. The New England Field Office EPPs include performance measures for requiring
employees to meet a certain number of WAG conservation targets per year. Our review indicated
that the Virginia Field Office included WAG-related measures also, but not in all EPPs.

Although all of the EPPs reviewed contained goals that linked to either Program or DOI goals,
and two field offices created measureable goals, we found little consistency across regions and
field offices in how they were constructed. We also could not discern how they would aggregate
to support Program goals. The officials we interviewed expressed frustration because the
Washington Office did not provide guidance on, nor was there discussion or agreement among
the regions about, how to step down strategic performance measures to individual performance
measures. The Chief of the Endangered Species Office of Program Support in Washington told
us that the FWS Human Resources Office would issue guidance on stepping down organizational
performance measures to EPPs for FY2008; however, it will not be Endangered Species
Program-specific guidance. We also note that the Evidence section for Question 3.2 in the
FY2005 PART cites the DOI Handbook on Cascading GPRA Goals. Although the examples
provided in the Handbook are not Endangered Species-specific, one is from the DOI Resource
Protection mission area, under which the Program falls. The Handbook therefore provides at
least some guidance in stepping down the strategic goals to the EPPs.

       SUGGESTION 5
       Convene an EPP task force once the FWS FY2008 Human Resource Office
       guidance on stepping down organizational performance measures to EPPs
       has been issued. This task force should include representatives from the field
       offices that incorporated their work activity guidance into the EPPs. The function
       of the task force would be to:
           • Develop a guide for stepping down performance measures from the
               Strategic Plan to EPPs. The guide should also include examples of

                                                 11
               performance measures for holding managers accountable for cost,
               schedule, and performance results.
           •   Develop hands-on training for regional and field offices on stepping down
               performance measures to EPPs at their respective levels.
           •   Institute a means of assuring that individual performance measures are
               consistent within job classifications throughout the Program, allowing for
               regional variations in Program priorities and complexity.

Program officials understand OMB’s recommendation to link EPPs to Program or agency goals
with measurable performance goals as applying to all employees. However, several regional and
field level personnel we spoke with believed that OMB wanted the employee performance plans
to be linked to outcome measures, so individual employees would be held responsible for
Program outcomes. This expectation raised significant concern given the long-term nature of
species recovery, the outside factors that can influence recovery, potential difficulties with
calculating outcomes from shared responsibilities, and the potential to unintentionally encourage
staff to work on species that are quicker and easier to recover rather than those that require a
long-term effort.

The notion that OMB expects EPPs to include outcome goals is in error, however. The 2007
PART Guidance on outcomes and outputs refers to program performance measures, not
employee performance measures. The annual EPP goals and measures should specify the
individual’s activities that contribute to annual Program outputs. Regional managers we spoke
with suggested that their employees’ EPPs should not hold them accountable for outcomes, but
for outputs that could influence outcomes in ways that helped meet Program goals. We agree
with the managers and believe OMB’s expectations are similar.

We believe that this confusion about the levels and types of activities for which employees
should be held accountable stems from 1) the lack of clarity in the Plan concerning the results for
which the FWS Endangered Species Program is being held accountable, and 2) the lack of
guidance on stepping down performance measures from the Plan to EPPs.

       SUGGESTION 6
       Update EPPs to reflect the Program’s strategic goals, once they have been
       finalized, using the guide developed by the EPP task force.




                                                12
Partner Agreements

OMB Recommendation: Revising Partner Agreements to Contain Measurable Annual
and/or Long-term Goals (When Program Partners Contribute to Achievement of Program
Goals).

OMB Recommendation: Develop monitoring programs to measure effectiveness of
program partner agreements (both funded and voluntary agreements). This includes
agreements under Habitat Conservation Plans, Candidate Conservation Agreements, and
others.

Program officials told us that more than half of all species currently listed as endangered or
threatened spend at least part of their life cycle on lands privately owned or owned by federal
agencies outside of FWS/DOI. FWS fosters voluntary stewardship of these lands by entering into
both formal and informal agreements. Formal agreements are written agreements that legally
obligate the partner to carry out the agreed-upon work (for example, Candidate Conservation
Agreements with Assurances, grants, and SHAs). They are used to provide partners with funding
or other resources, such as an incidental “take” permit1, for species conservation projects.
Informal agreements may be either verbal or written, such as a Memorandum of Understanding
(MOU), and provide the opportunity for a landowner to perform species conservation work
without making a legal commitment.

All agreements, formal and informal, written and
verbal, should contain measurable project goals
that advance the Program’s goals to some degree.
This is most important where the partner is
receiving funding or other resources from FWS.
Further, projects should be regularly monitored to
hold partners accountable for sound fiscal
management and making sufficient progress
toward accomplishing project goals. Measurable
project goals must be in place for adequate and
consistent monitoring to occur.

During our visits to field offices, Program officials provided four examples of written partnership
agreements. Two of the agreements identified species that would benefit from implementation of
the agreement. A third agreement included a clear deadline and specified habitat restoration
activities to be performed. There was no mention of species that would benefit from the
restoration activities, however. All of the agreements held the partner accountable for cost,
schedule, and performance results via a clause that allows FWS to seek reimbursement or to
revoke a take permit if the partner did not complete the work specified in the agreement.

Informal agreements can also be effective conservation tools. They make it possible for partners
who are unable or prefer not to enter into a binding agreement with the government to work with

1
    A take permit is a permit issued by the FWS that authorizes the incidental or unavoidable taking of a listed species.

                                                            13
the Program. For example, the California Farm Bureau, rice growers, and cattle growers
collaborated to develop an MOU with FWS that benefited the tri-colored blackbird and other
migratory birds. Their efforts, in part, resulted in the tri-colored blackbird not needing to be
listed. A written agreement such as an MOU, even though not legally binding, can identify
intended accomplishments and facilitate effective monitoring. Monitoring verbal agreements,
however, poses other unique challenges. Partners may not articulate planned accomplishments
clearly, making it difficult to identify what to monitor.

The Program should, therefore, attempt to obtain agreements in writing whenever possible.
While most of the sample agreements provided to us during site visits articulated goals and
reasons for the goals, we did not find them to be consistently clear. Agreements should contain
clear statements that connect the planned tasks to specific annual or long-term measures that
support the Program’s goals. Including the individual project tasks’ goals will facilitate
monitoring and assessment of task completion and results achieved.

Some written agreements have already incorporated annual or long-term measures that support
the draft Strategic Plan. Once the Plan is finalized, annual and long-term measures can be
incorporated into all partner agreements.

       SUGGESTION 7
       Incorporate into every written partnership agreement language stating the
       project’s annual or long-term goals and the Program goals the agreement
       supports.

Resources specifically for monitoring could help to facilitate the regular performance of this
function by FWS. Currently, funds designated as monitoring funds are not always available for
FWS priorities. For example, officials in Region 8 stated that funds for monitoring are included
in recovery money. However, these funds usually are consumed by 5-year reviews and other
lower priority activities, which are required as a result of litigation. (As noted on page [9],
actions mandated by the courts affect the ability to achieve Program priorities and divert already
                                            limited monetary and staff resources.) Consequently,
                                            monitoring in Region 8 occurs on an ad hoc basis.
                                            Biologists may visit a site while work is being
                                            conducted or after it has been completed. Private
                                            landowners often call the Endangered Species field
                                            office with which they are affiliated to report on
                                            activities that worked well or did not work.

                                           Some formal agreements, such as Section 6 state
                                           cooperative agreements awarded by Region 8 require
                                           the recipient to submit performance and fiscal
                The Threatened Canada Lynx information for annual reports. A potentially effective
                               Source: FWS
                                           monitoring tool, such reporting requirements could
keep all parties up-to-date on progress made on long-term projects if they are consistently
reviewed and used as a basis for follow-up when necessary. A 2006 report, the Review of
Administrative Management of Endangered Species Nontraditional Grant Programs, was

                                                14
prepared for the Program by an independent accounting firm. In the report, the review team
stated that they “generally found no evidence in either the ES [Endangered Species] coordinators
files or FA [Financial Assistance] files that any report evaluations had taken place” outside of
Region 1, which now receives performance reports for all of its Section 6 grants and is the only
region with a full-time coordinator.

While additional funding for this function may not be available, officials could review the uses
of current funding to determine whether they can re-prioritize activities. They may also be able
to determine whether staff time could be re-allocated to allow sufficient time for monitoring
partners’ activities.

       SUGGESTION 8
       Work with DOI officials to develop ways to ensure sufficient resources are
       available to monitor partnership agreements on a regular basis.

One field official indicated that the Washington Office had not provided any written guidance
pertaining to partnership programs. Guidance on structure, content, performance measures and
financial accountability provisions, and monitoring protocols for each type of written partner
agreement into which the Program may enter could help standardize the partnership agreement
process and assist field officials in developing agreements.

       SUGGESTION 9
       Develop a manual for partnership programs, providing guidelines for the
       field offices on how to develop partner agreements.


INDEPENDENT EVALUATION
OMB Recommendation: Develop a process and timetable for regularly scheduled,
non-biased, independent evaluations of the program or key components of the program
that, collectively, cover the entire program.

In response to OMB’s recommendation, Program officials scheduled a 5-year series of
component evaluations: grants, which was completed in FY2006; agreements, which was to be
completed in FY2007; recovery and consultation, both of which are planned for FY2008; listing
and candidate assessment, which is planned for FY2009; and critical habitat in FY2010. To
ensure independence, Program officials planned to contract with independent consultants to
complete the evaluations.

We believe the above schedule meets OMB’s requirement, and evaluation funding was set aside
for FY2007 and for FY2008. However, contracting documents had not been completed by the
end of FY2007, and no evaluation was conducted. The next step is therefore to move forward
with conducting the evaluations as scheduled.




                                               15
Additionally, in planning and conducting evaluations to meet OMB’s requirements and garner
YES answers to PART Questions 2.6 and 4.5, the Program not only needs to have a schedule but
also to meet three other criteria. They must: 1) be of high
quality, 2) be of sufficient scope and 3) be conducted by               PART QUESTION 2.6
independent, unbiased parties. The Program’s plan to contract    Are  independent  evaluations of
                                                                 sufficient scope and quality
with independent consultants to conduct the evaluations fulfills
                                                                 conducted on a regular basis or
the independence criterion. Whether the evaluations have been    as needed to support program
and will be of sufficient scope and quality may be at issue.     improvements and evaluate
                                                                   effectiveness and relevance to the
The overall objective of program evaluation within this context    problem, interest, or need?
is to determine the Program’s effectiveness in a more rigorous           PART QUESTION 4.5
and comprehensive manner than the PART alone can do. With          Does the performance of this
a program as complex as FWS’s Endangered Species Program,          program compare favorably to
it is appropriate to conduct a set of evaluations that together    other programs, including
fulfill the scope criterion, rather than to conduct one large      government, private, etc., with
evaluation.                                                        similar purpose and goals?


The planned evaluations appear to cover most of the Program’s key components, but there may
be additional areas warranting evaluation, such as the Program’s outreach efforts and the impact
of litigation on other Program components. A well-developed logic model, as described on pages
10 and 11 of this report, could serve as the basis for a comprehensive evaluation strategy,
particularly given the Program’s complexity. The money that has been set aside for evaluation in
FY2008 could potentially be used for that purpose.

       SUGGESTION 10
       Use the logic model, which would be developed to implement Suggestion 2, as the
       basis for planning and conducting a comprehensive and discrete set of Program
       component evaluations.

An accounting and management consulting firm conducted the first Program component
evaluation in FY2006. Although the firm lists “Program Audits and Evaluations” among the
consulting services it is qualified to perform under GSA’s MOBIS (Mission Oriented Business
Integrated Services) schedule, program evaluation is not listed as a service provided or as a
competency elsewhere on its Web site. The evaluation this firm conducted was actually an
assessment of grants management procedures and financial controls, which is an approach that is
consistent with the firm’s auditing qualifications. The report does provide a number of useful
suggestions for improving the grant program’s administrative processes. The assessment did not,
however, ask the fundamental program evaluation questions. Was the program effective? Did it
accomplish its objectives? Why or why not? These are questions that should always be asked in a
program evaluation, and the instructions for answering Question 2.6 in OMB’s 2008 PART
guidance (www.omb.gov.part) specify that a quality evaluation should have sufficient rigor to
determine the effectiveness or impact of the program. Specifically, OMB’s guidance states, “ . . .
evaluations should be of sufficient scope to improve planning with respect to the effectiveness of
the program . . . The most significant aspect of program effectiveness is impact – the outcome of
the program, which otherwise would not have occurred without the program intervention.” If


                                               16
 Numbers are not the sole metric by            future program component evaluations were to follow
 which to evaluate the Endangered              a similar approach to the 2006 report, FWS would fall
 Species Act. Recovery of at-risk species is   short of these OMB expectations.
 a complex process that seeks to reverse
 decades or centuries of decline. How well
 does the act (sic) work in the variety of      To meet OMB’s quality criterion, the Program needs
 habitats that characterize modern              to define requirements for future program component
 America? How well does it facilitate the       evaluations more clearly, including how the
 interaction of the various potential actors    evaluations will be designed and conducted; how
 – federal, state, and local government
 agencies, tribes, private landowners, and      evaluation questions will be developed; how data will
 nongovernmental organizations?                 be collected and analyzed to answer the questions;
                                                how the evaluation results will be used to improve the
   – from The Endangered Species Act at Thirty, Program. While OMB suggests that an experimental
                                         vol.1
                                                approach using randomized controlled trials is the
                                                methodology of choice, they recognize that that
approach is not feasible for every program. The guidance suggests that agencies consult
evaluation experts when choosing methodologies. Appendix B of the guidance provides links to
a number of evaluation information resources that would help Program managers to define
quality standards for their evaluations and select consultants with the knowledge and skill to
meet those standards. Subject matter knowledge is important, but program evaluation expertise
and experience is paramount in selecting consultants to conduct the evaluations.

       SUGGESTION 11
       Clearly define requirements when hiring an independent consultant. The
       requirements should include program evaluation expertise.

OMB did not provide a recommendation pertaining to PART
Question 4.4, to which it gave the Program a NO answer.                    PART QUESTION 4.4
                                                                      Does the performance of this
The only program with similar purpose and goals and which             program compare favorably to
                                                                      other programs, including
covers the full spectrum of activities covered by the FWS
                                                                      government, private, etc., with
Program is NOAA’s endangered species program. No                      similar purpose and goals?
evaluation comparing the two has been conducted. The
rationale given under the answer to Question 4.4 in the 2005
PART stated, “…with NOAA managing 61 listed species and DOI managing over 1,200 species
such a comparison would be challenging.” Aspects of the FWS Program could be compared to
other agencies’ programs or state programs; however, there is no other program that is as
comprehensive as FWS’s. Other federal agencies with endangered species responsibilities
support the FWS Program. The states’ endangered species programs also support the FWS
Program to some extent. The only program that is comparable and does not support FWS's
Program (other than the 10 jointly managed species populations) is NOAA's, and a fair
comparison would be difficult to make given the size differential.

In the 2005 PART of the FWS Wildlife and Sport Fish Restoration Program (WSFR), OMB
deemed Question 4.4 to be “Not Applicable.” The explanation stated that although other
programs addressed components of the WSFR program, no one program is comparable in size

                                                   17
and scope. The PART states, “Accordingly, comparisons with other grant programs are not
appropriate and would not be adequate. If a comparison were to be made, a conglomeration of
many individual programs would have to be constructed (i.e., multiple NGOs) to have a
reasonable comparison. An effort of this magnitude and complexity would be inherently too
costly and difficult to perform.”

Question 4.4 was also deemed “Not Applicable” for another program that pulls together the
efforts of many government and private entities to meet its goals, the Department of Health and
Human Services’ Chronic Disease Prevention Program under the National Center for Chronic
Disease Prevention and Health Promotion (NCCDPHP) in its 2006 PART. The explanation
stated “There are no other programs at the Federal, state and local levels that cover the breadth of
chronic disease prevention, in addition to health promotion.”

We believe the FWS Endangered Species Program is unique. Question 4.4 should be deemed
“Not Applicable,” like the WSFR and NCCDPHP.

        SUGGESTION 12
        Make the case with OMB to deem Question 4.4 “Not Applicable” in the next PART.


REGULATIONS AND POLICIES
OMB Recommendation: Ensure regulations and policies help improve the program's
effectiveness (revising definition of adverse modification and issuing critical habitat
guidance).

OMB Recommendation: Explicitly characterize the benefits of exclusion and inclusion of
particular areas in critical habitat designations to improve the transparency of the net
benefit calculation.

OMB Recommendation: Develop a plan for submitting significant critical habitat
designations (including all supporting analyses) for review under [Executive Order] 12866.
Such a plan may include establishing internal deadlines for field offices and beginning to
designate critical habitat consistent with statutory deadlines.

The Secretary of the Interior may exclude an area from designation as critical habitat if an
economic analysis determines that the benefits of exclusion outweigh the benefits of inclusion,
unless failure to designate the area as critical habitat could lead to the species’ extinction. Critical
habitat guidance that describes the different types of exclusions, reasons for exclusion, and how
to exclude land from critical habitat was first submitted to FWS upper management for approval
on December 19, 2006 but was not approved. New draft guidance was approved by the Director
and submitted to the Office of the Solicitor in October 2007. It has since been returned to FWS
and is being updated. The regional offices and the Director will discuss the guidance once it is
updated. Officials in the Washington Office noted that the guidance needs to be reviewed



                                                  18
carefully because of the amount of litigation surrounding critical habitat. They did not provide a
target date for finalizing the guidance.

                                             A comprehensive rewrite of the Endangered Species
 Since 1973, the role of states has
                                             Program regulations was completed in the summer of
 expanded continuously but still falls
 short of state roles under similar          2007. The rewrite was drafted by a group of regional
 cooperative federalism provisions in        and Washington Office personnel that reviewed all of
 the Clean Water Act. To date, however,      the regulations, reconciling them with each section of
 the states have been reticent to            the ESA. This draft included 1) new regulations for
 establish regulatory programs that are
                                             recovery, as none had previously existed; 2)
 as protective as the ESA, a basic
 requirement of cooperative federalism.      regulations necessary to fulfill the requirements of
                                             Executive Order 12866; and 3) a revised definition of
       — from The Endangered Species Act at  adverse modification (which, generally, is action by a
                              Thirty, vol. 1
                                             federal agency that could negatively affect designated
                                             critical habitat;). After many rewrites, the draft was
sent out for comment to DOI (including the Office of the Solicitor), the bureaus, NOAA, and
other affected federal agencies. After considering the comments, the resulting draft was sent to
the Office of the Secretary and the White House Council on Environmental Quality (CEQ),
where it remains under consideration.

In drafting a comprehensive regulation rewrite, the Program has made significant progress
toward meeting OMB’s recommendation to ensure regulations help improve the program’s
effectiveness. A complete rewrite of the regulations to improve not only their effectiveness, but
also consistency with the ESA is a significant undertaking for which the Program deserves much
credit. However, as evidenced by the continued delay at CEQ, this “all-at-once” strategy may not
be effective. The previous regulatory definition of adverse modification was found to be contrary
to law. Several courts have instructed FWS to rewrite the definition. The delay at CEQ is
preventing FWS from complying with the courts’ instructions. According to a Program official
in the Washington Office, DOI has informally initiated work with FWS on a separate regulation
change for adverse modification only.

       SUGGESTION 13
       Develop a rulemaking strategy regarding what can and should be accomplished
       through internal guidance, what must be accomplished through regulation, and
       whether to pursue a comprehensive rewrite or a series of more focused regulation
       revisions. This strategy development would require the active involvement of FWS
       upper management, representatives from DOI, and perhaps from OMB.

Endangered Species Program policies are developed at the national, regional, and field levels. In
addition to disseminating policies, each regional office interprets and steps down national
policies for its field offices and reviews policies that may be developed by its field offices. The
Assistant Regional Directors (ARDs) under which the Program falls, share policies, best
practices, and lessons learned at quarterly teleconferences for which official notes are kept as
well as on an ad hoc basis, by e-mail.



                                                 19
Policies developed at the regional level are occasionally adopted at the national level. For
example, Region 8 developed a policy to allow the refuges to prepare their own biological
opinions, since they are part of FWS and have qualified staff. This policy now saves the Program
money and staff time, nationwide.

Like the ARDs, regional coordinators of each endangered species program area share best
practices and guidance through regular teleconferences. Unlike the ARDs, they do not keep
official records of the meetings. Shortly after each teleconference, the coordinators follow up
with each other on information discussed and documents exchanged, but this is done informally.
A formal record of the regional coordinator teleconferences and the policies and guidance shared
would help the Program demonstrate to OMB how it works to improve its effectiveness through
ongoing policy and guidance revisions. Further, all policies and guidance, regardless of where or
how they originate, should be documented in a central location such as a shared drive or database
that all regional and field offices can easily access and draw from. Each item should include a
description of how it improves the Program’s effectiveness.

       SUGGESTION 14
       Keep official meeting notes for the monthly regional program coordinator
       teleconferences. Enter guidance shared at those meetings into a central repository
       that contains all existing, new, and updated Program policies and guidance.


DUPLICATION OF EFFORT
In the 2005 PART review, OMB stated in Question 1.3 that some program elements are
redundant with other federal programs such as wetlands protection undertaken by the EPA and
the Army Corps of Engineers (Corps). Though some endangered
species may benefit from wetlands protection, EPA and the Corps          PART QUESTION 1.3
are not charged with protecting wetlands specifically for             Is the program designed so
endangered species conservation. Neither are they responsible for     that it is not redundant or
listing species which may be threatened or endangered because of      duplicative of any other
the absence of wetlands conservation. Instead, their endangered       Federal, state, local or
                                                                      private effort?
species responsibilities stem from the potential impact on
threatened and endangered species of carrying out their agencies’
missions. The Program does not protect wetlands, but rather species, and although conservation
efforts may overlap, this does not signify redundancy.

OMB also stated that NOAA addresses the same problem and performs the same activities as the
FWS’s Program. While that is true on the surface, because the ESA gives both FWS and NOAA
the responsibility for endangered species conservation, NOAA, in keeping with its mission of
protecting marine ecosystems, is charged with implementing provisions to safeguard marine
species. FWS, in keeping with its mission of protecting terrestrial and freshwater ecosystems, has
oversight for fresh water and terrestrial species. Therefore, we believe that the responsibilities
are correctly placed within both bureaus. The two agencies jointly manage some species that
occur in both of the bureaus’ habitats (fresh water and marine habitats or terrestrial and marine
habitats), such as Atlantic sturgeon and sea turtles. The 10 species populations for which they
                                                20
share oversight amounts to less than one percent of the total number of listed species. FWS and
NOAA are responsible for such species only when they are present in the habitats each agency
                                                                          manages (e.g., sea
                                                                          turtles are managed by
                                                                          FWS while they are on
                                                                          land and by NOAA
                                                                          while they are in the
                                                                          ocean). In this way,
                                                                          each agency
                                                                          complements the other
                                                                          and benefits the species
                                                                          throughout its lifecycle.

                                                                                  In addition to the FWS
                                                                                  Endangered Species
                                                                                  Program, other FWS
                                                                                  programs also
                                                                                  implement endangered
                                                                                  species work, such as
          The Threatened Loggerhead Sea Turtle – Managed Jointly by NOAA and FWS  NWRS. The
                                                                      Source: FWS Endangered Species
                                                                                  Program and NWRS
work together when an endangered species is present on a refuge because NWRS, with staff on
site, can more effectively implement recovery actions. Several other federal agencies, such as the
Department of Agriculture’s Forest Service and the Department of the Army, are also involved
in aspects of endangered species work because their efforts in carrying out their missions may
affect endangered species. The Forest Service and military both have extensive acreages that
provide habitat for endangered species. Unlike FWS and NOAA, the other agencies are not
involved in listing species. Instead, they must affirm that their actions do not negatively affect
listed species by depleting habitat or extirpating a species.

Each state also manages an endangered species program that helps to implement, support, and
extend the FWS Program. States promulgate laws that complement the ESA. Each of the 50
states also has the required laws and cooperative agreements that permit them to receive federal
grants under Section 6. This relationship links the states and state responsibility to the federal
recovery activities and ensures state involvement. However, species covered at a state level are
not necessarily the same as those covered at the federal level. States lists species that are
declining within their respective boundaries, while the federal government considers a species’
total population within the U.S. States may also have more stringent criteria for listing than those
provided by the ESA. Therefore, it is possible for a species to be on a state list and not the
federal list, or vice versa. While the ESA directs FWS to work cooperatively with the states, it
also requires that state efforts to protect a species be taken into account when making a listing
determination.




                                                  21
The Program also works with various partners at all levels of state and local government and the
private sector to conduct more effective recovery efforts. Regional and local organizations and
norms influence the work each FWS office performs in conjunction with partners. For example,
the Sacramento Field Office works with Resource Conservation Districts (RCDs), which operate
                                          at the county and local level in California. The RCDs
  …encouraging the States and             provide assistance by referring to the field offices
  other interested parties, through       landowners who are likely candidates for entering into
  Federal financial assistance and a      an SHA. In the New England Field Office, where SHAs
  system of incentives, to develop        are rare, the field office works with state and federal
  and maintain conservation               agencies, while NGOs do a great deal of work with
  programs which meet national            private landowners. In both circumstances, the non-
  and international standards is a        federal entities are either aiding or complementing the
  key to … better safeguarding, for
                                          work done by the Program. FWS has expanded
  the benefit of all citizens, the
  Nation’s heritage in fish, wildlife,    partnerships with private landowners in the past 10
  and plants.                             years. It often relies on the ability of NGOs to reach out
                                          to and engage private landowners who might view an
     — The Endangered Species Act of 1973 initial contact by the federal government as a move
                                          toward infringing on their property rights.

According to officials in one field office, some NGOs purchase outright, and monitor, habitats
that would be difficult for FWS to monitor due to their geographic distribution. However, such
work is specific to the NGO’s mission and priorities, which may only partially overlap with the
Program’s. The Program, on the other hand, oversees all terrestrial and freshwater imperiled
species throughout the Nation.

It is also worth pointing out that the structure of the Program is similar to the Department of
Health and Human Services’ Chronic Disease Prevention Program under the NCCDPHP,
mentioned above. This program was rated Moderately Effective in its 2006 PART review and
received a YES for Question 1.3. The purpose of this program, as stated in the Assessment
Summary, is to “…prevent death and disability due to chronic diseases and promote healthy
behaviors across the entire life span. The program accomplishes these goals in partnership with
health and education agencies, major voluntary associations, the private sector, and other federal
agencies.” There is a parallel here with the Endangered Species Program, wherein preventing
death and disability can be likened to recovering threatened and endangered species, and
promoting healthy behaviors is similar to conserving species before they become threatened or
endangered.

The explanation section under Question 1.3 of NCCDPHP’s PART notes that the program
“addresses the nation’s public health infrastructure, which goes beyond the healthcare providers
and includes public health professionals, educators, policy makers, healthcare professionals, etc.
NCCDPHP partners with both public and private sector organizations that address these issues,
but each organization has a focus that is more specific than the integrated structure.” In a similar
manner, the Endangered Species Program serves as a focal point, partnering with many public
and private organizations, without which it could not effectively conserve imperiled species. The
NCCDPHP works with partners that focus on specific diseases, such as the American Heart
Association, and those that focus on broader health issues, such as the American School Health
Association. Likewise, the Endangered Species Program partners with organizations that focus
                                                 22
on narrower concerns, such as the Audubon Society (which focuses on birds) and those that
focus on broader conservation issues, such as The Nature Conservancy. Rather than duplicating
the endeavors of others, both the NCCDPHP and the Endangered Species Program provide
unifying structures to the more narrowly-focused
efforts of NGOs, states, local governments, and
others that support the larger goals of chronic
disease prevention and species conservation,
respectively, throughout the nation.

An even more pertinent example of a program
that serves as a unifying structure for addressing
an issue is the FWS WSFR program, also
mentioned above. In its 2005 PART review,
OMB stated, “The [WSFR] program has been the
cornerstone of fish and wildlife conservation in
the U.S. for well over 50 years. The program
legislation directs the Secretary of the Interior to
cooperate with State fish and wildlife agencies                           The Threatened Ozark Cavefish
                                                                                          Source: FWS
with primary authority for fish and wildlife
resources…” Similarly, the ESA is the cornerstone for endangered species conservation in the
U.S. Sections 6 and 7 of the ESA authorizes the Secretary of Interior to work with state and
federal agencies for species conservation. NGOs create another opportunity for FWS to work
with private landowners. The PART review of WSFR notes, “Other entities and programs have
                                       similar complementary goals.” FWS also relies on the
  Private sector cooperation and       complementary goals of other entities and programs to
  leadership will determine the fate   accomplish its objectives.
 of many endangered species.
                                   As a result of our discussions with Program officials and our
     — The Endangered Species Act at
                                   review of Program documents and outside literature, we
                       Thirty, vol. 1
                                   view endangered species conservation as a massive and
                                   perpetually underfunded task, requiring cooperation among
many different groups. Species conservation requires countless organizations and individuals to
work in a coordinated manner.

[Exemption 5]

        SUGGESTION 15
        Institute a formal process to ensure that Program activities are coordinated
        with those of other organizations that are working on the same species or in
        the same geographical area. Use the discussion and information presented
        here when responding to Question 1.3 in the next PART review.




                                                  23
                                       APPENDIX A
                              History and Use of the PART


Planning and performance In 1993, the Congress found federal managers to be
           monitoring are “disadvantaged in their efforts to improve program efficiency
          required by law and effectiveness, because of insufficient articulation of
                          program goals and inadequate information on program
                          performance.” The Government Performance and Results Act
                          (Public Law 103-62), or GPRA, was passed to promote a focus
                          on results by requiring federal agencies to engage in strategic
                          planning and performance reporting.

  Objectives and results of    The “President’s Management Agenda,” which includes a U.S.
     federal programs are      Government-wide initiative to improve budget and performance
   assessed during budget      integration, was published in 2001. The Agenda calls for
              formulation      agencies to monitor program performance and to incorporate
                               performance review into budgetary decision-making.

                               To support this initiative, the Office of Management and Budget
                               (OMB) instituted a new activity within the context of budget
                               formulation. OMB uses a standard questionnaire called the
                               Program Assessment Rating Tool (PART) to engage federal
                               programs in a review of program design, strategic planning,
                               program management, and the achievement of results that
                               demonstrate value for the taxpayer. Through the PART process,
                               OMB rates programs as Effective, Moderately Effective,
                               Adequate, or Ineffective. Alternatively, OMB deems programs
                               that are unable to provide reliable performance information
                               (thus precluding assignment of a program rating) Results Not
                               Demonstrated and recommends establishment or improvement
                               of mechanisms for performance measurement.

OMB has found that many Of the 72 DOI programs assessed between 2002 and 2007,
       DOI programs lack OMB rated only eight programs (11 percent) Effective and
 performance information placed 16 programs (22 percent) in the category Results Not
                         Demonstrated. DOI programs assessed through the PART
                         process reflect over $9 billion dollars in annual budget
                         authority. Approximately one quarter of this spending is
                         associated with programs that lack reliable performance
                         information.




                                             A-1
    PART Ratings for DOI            Number of      Percent of
      Programs, 2002-2007           Programs       Programs
 Effective                               8             11
 Moderately Effective                   23             33
 Adequate                               25             34
 Ineffective                             0              0
      Results Not Demonstrated          16             22
                      TOTAL             72            100

PART findings can be used to 1) justify termination or
substantial curtailment of federal programs, 2) support
legislative or fiscal enhancements, or 3) promote management
improvements. OMB publishes PART results on its
ExpectMore.gov Web site, together with recommended
improvement actions for every program it has assessed. Agency
officials and program managers are expected to follow up on
these recommendations and to keep OMB, and ultimately the
public, apprised of progress through updates of the information
posted to ExpectMore.gov and through internal
communications. OMB then reassesses programs on schedules
developed in consultation with responsible agencies.




              A-2
                  APPENDIX B
           Sites Visited or Contacted


             Region 5 - Northeast
             New England Field Office
                  Concord, NH
               Virginia Field Office
                 Gloucester, VA
Region 8 - California and Nevada (Formerly CNO)
                  Region 8 Office
                 Sacramento, CA
              Sacramento Field Office
                 Sacramento, CA
              Washington Office
                Washington Office
                 Arlington, VA




                             View from the New England Field Office
                                                   OIG Staff Photo




                       B-1
                              APPENDIX C
          Index of OMB Improvement Plan Actions by Report Section

                  OMB Recommendation                                Section(s) in this Report
OMB Recommendation #1: Develop long-term outcome
                                                                 Strategic Plan
and annual output performance measures.

OMB Recommendation #2: Ensure regulations and policies
                                                                 Regulations and Policies
help improve the program’s effectiveness.

OMB Recommendation #3: Explicitly characterize the
benefits of exclusion and inclusion of particular areas in
                                                                 Regulations and Policies
critical habitat designations to improve the transparency of
the net benefit calculation.

OMB Recommendation #4: Develop a process and
timetable for regularly scheduled, non-biased, independent
                                                                 Evaluation
evaluations of the program or key components of the
program that, collectively, cover the entire program.

OMB Recommendation #5: Revise individual employee
performance plans to include specific, measurable annual         Employee Performance Plans
and long-term goals.

OMB Recommendation #6: Revise partner agreements to
include specific, measurable annual and long-term goals          Partner Agreements
(when program partners contribute to achievement of              Employee Performance Plans
program goals).

OMB Recommendation #7: Develop a plan for submitting
significant critical habitat designations (including all
supporting analyses) for review under EO12866. Such a
                                                                 Regulations and Policies
plan may include establishing internal deadlines for field
offices and beginning to designate critical habitat consistent
with statutory deadlines.

OMB Recommendation #8: Develop and use efficiency
                                                                 Strategic Plan
measures for key aspects of the program.

OMB Recommendation #9: Develop monitoring programs
to measure effectiveness of program partner agreements           Partner Agreements
(both funded and voluntary agreements). This includes            Evaluation
agreements under Habitat Conservation Plans.




                                               C-1
                                    APPENDIX D
                               Table of Suggestions


Number                                 Suggestion                                 Page

                                    Strategic Plan

         Designate an annual efficiency measure and a minimum of one annual
  1                                                                               [6]
         output measure for each outcome.

         Convene a working group, including an individual or individuals with
         logic modeling expertise, to develop a high-level logic model for the
  2                                                                               [8]
         ESA and a detailed one for the Endangered Species Program within
         FWS.

         Develop a guide that clearly describes how the regions and field
  3                                                                               [9]
         offices need to modify their operations to implement the Plan.

  4      [Exemption 5]                                                            [9]

                            Employee Performance Plans

         Convene an EPP task force once the FWS FY2008 Human Resource
  5      Office guidance on stepping down organizational performance              [11]
         measures to EPPs has been issued.

         Update EPPs to reflect the Program’s strategic goals, once they have
  6                                                                               [12]
         been finalized, using the guide developed by the EPP task force.

                                 Partner Agreements

         Incorporate into every written partnership agreement, language stating
  7      the project’s annual or long-term goals and the Program goals the        [14]
         agreement supports.

         Work with DOI officials to develop ways to ensure sufficient resources
  8                                                                               [15]
         are available to monitor partnership agreements on a regular basis.

         Develop a manual for partnership programs, providing guidelines for
  9                                                                               [15]
         the field offices on how to develop partner agreements.




                                          D-1
                                  Evaluation

     Use the logic model, which would be developed to implement
10   Suggestion 2, as the basis for planning and conducting a                 [16]
     comprehensive and discrete set of Program component evaluations.

     Clearly define requirements when hiring an independent consultant.
11                                                                            [17]
     The requirements should include program evaluation expertise.

     Make the case with OMB to deem Question 4.4 “Not Applicable” in
12                                                                            [18]
     the next PART

                           Regulations and Polices

     Develop a rulemaking strategy regarding what can and should be
     accomplished through internal guidance, what must be accomplished
     through regulation, and whether to pursue a comprehensive rewrite or
13                                                                            [19]
     a series of more focused regulation revisions. This strategy
     development would require the active involvement of FWS upper
     management, representatives from DOI, and perhaps from OMB.

     Keep official meeting notes for the monthly regional program
     coordinator teleconferences. Enter guidance shared at those meetings
14                                                                            [20]
     into a central repository that contains all existing, new, and updated
     Program policies and guidance.

                             Duplication of Effort

     Institute a formal process to ensure that Program activities are
     coordinated with those of other organizations that are working on the
15   same species or in the same geographical area. Use the discussion and    [23]
     information presented here when responding to Question 1.3 in the
     next PART review.




                                      D-2
                                       APPENDIX E
                    PART Questions that Elicited a NO Answer


                                   Strategic Planning
PART Question 2.1. Does the program have a limited number of specific long-term
performance measures that focus on outcomes and meaningfully reflect the purpose of
the program?

PART Question 2.2. Does the program have ambitious targets and timeframes for its
long-term measures?

PART Question 2.3. Does the program have a limited number of specific annual
performance measures that can demonstrate progress toward achieving the program’s
long-term goals?

PART Question 2.4. Does the program have baselines and ambitious targets for its
annual measures?

PART Question 2.7. Are budget requests explicitly tied to accomplishment of the
annual and long-term performance goals, and are the resource needs presented in a
complete and transparent manner in the program’s budget?

PART Question 2.8. Has the program taken meaningful steps to correct its strategic
planning deficiencies?

PART Question 3.4. Does the program have procedures (e.g., competitive
sourcing/cost comparisons, IT improvements, appropriate incentives) to measure and
achieve efficiencies and cost effectiveness in program execution?

PART Question 4.1. Has the program demonstrated adequate progress in achieving its
long-term performance goals?

PART Question 4.2. Does the program (including program partners) achieve its
annual performance goals?

PART Question 4.3. Does the program demonstrate improved efficiencies or cost
effectiveness in achieving program goals each year?

                         Employee Performance Plans
PART Question 2.1. Does the program have a limited number of specific long-term
performance measures that focus on outcomes and meaningfully reflect the purpose of
the program?



                                            E-1
PART Question 2.2. Does the program have ambitious targets and time frames for its
long-term measures?

PART Question 2.3. Does the program have a limited number of specific annual
performance measures that can demonstrate progress toward achieving the program’s
long-term goals?

PART Question 2.4. Does the program have baselines and ambitious targets for its
annual measures?

PART Question 2.5. Do all partners (including grantees, sub-grantees, contractors,
cost-sharing partners, and other government partners) commit to and work toward the
annual and/or long-term goals of the program?

PART Question 3.2. Are federal managers and program partners … held accountable
for cost, schedule and performance results?

                              Partner Agreements
PART Question 2.1. Does the program have a limited number of specific long-term
performance measures that focus on outcomes and meaningfully reflect the purpose of
the program?

PART Question 2.2. Does the program have ambitious targets and timeframes for its
long-term measures?

PART Question 2.3. Does the program have a limited number of specific annual
performance measures that can demonstrate progress toward achieving the program’s
long-term goals?

PART Question 2.4. Does the program have baselines and ambitious targets for its
annual measures?

PART Question 2.5. Do all partners (including grantees, sub-grantees, contractors,
cost-sharing partners, and other government partners) commit to and work toward the
annual and/or long-term goals of the program?

PART Question 3.2. Are federal managers and program partners … held accountable
for cost, schedule and performance results?

                                    Evaluation
PART Question 2.6. Are independent evaluations of sufficient scope and quality
conducted on a regular basis or as needed to support program improvements and
evaluate effectiveness and relevance to the problem, interest, or need?




                                            E-2
PART Question 4.4. Does the performance of this program compare favorably to
other programs, including government, private, etc., with similar purpose and goals?

PART Question 4.5. Do independent evaluations of sufficient scope and quality
indicate that the program is effective and achieving results? (This question received a
“Small Extent” rating.)

                             Regulations and Policies
PART Question 1.4. Is the program design free of major flaws that would limit the
program’s effectiveness or efficiency?

PART Question 1.5. Is the program design effectively targeted so that resources will
address the program’s purpose directly and will reach intended beneficiaries?

PART Question 2.RG1. Are all regulations issued by the program/agency necessary
to meet the stated goals of the program, and do all regulations clearly indicate how the
rules contribute to achievement of the goals?

PART Question 3.RG2. Did the program prepare adequate regulatory impact analyses
if required by Executive Order 12866, regulatory flexibility analyses if required by the
Regulatory Flexibility Act and SBREFA, and cost-benefit analyses if required under the
Unfunded Mandates Reform Act; and did those analyses comply with OMB guidelines?

PART Question 3.RG3. Does the program systematically review its current
regulations to ensure consistency among all regulations in accomplishing program
goals?

PART Question 3.RG4. Are the regulations designed to achieve program goals, to the
extent practicable, by maximizing the net benefits of its regulatory activity?

PART Question 4.RG1. Were programmatic goals (and benefits) achieved at the least
incremental societal cost and did the program maximize net benefits?

                               Duplication of Effort
PART Question 1.3. Is the program designed so that it is not redundant or duplicative
of any other Federal, state, local or private effort?




                                              E-3
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
